LEARN

ABOUT

RESOURCES

GET $10!

HELP

LOG IN

CARDMEMBER AGREEMENT — Self Financial Visa® Credit Card

Cardmember Agreement and Security
Agreement
Thank you for choosing the Self Financial Visa® Credit Card. This
Cardmember Agreement and Security Agreement (the “Agreement”)
explains the current terms and conditions of your Account. The enclosed
Pricing Schedule is part of this Agreement.
THIS AGREEMENT CONTAINS AN ARBITRATION PROVISION. THIS
PROVISION AFFECTS YOUR RIGHTS IN THE EVENT OF A DISPUTE WITH
US, INCLUDING YOUR RIGHT TO BRING OR PARTICIPATE IN A CLASS
ACTION LAWSUIT. THE ARBITRATION PROVISION CAN BE FOUND IN
THIS AGREEMENT UNDER THE HEADING “ARBITRATION.”
Please read this Agreement, including the Pricing Schedule, carefully. Keep
them for your records. Contact us if you have any questions.

DEFINITIONS
Capitalized terms not otherwise defined in this Agreement have the
following meanings:
“Account” means your Self Financial Visa Credit Card account.
“Affiliate” means our parent corporations, subsidiaries and affiliates.
“Bank” means Lead Bank, the issuing bank of the Self Financial Visa Credit
Card.
“Billing Cycle” means the time interval covered by a billing statement, which
is approximately thirty days.
"Business Days" means Monday through Friday, excluding Federal Reserve
Bank holidays.
“Card” means the Self Financial Visa Credit Card issued to you.
“Check” means any check we send to you to access your Account.
“Pricing Schedule” means the document entitled Pricing Schedule, which
lists the APRs that apply to your Account and other important information.
“Prime Rate” means the highest U.S. Prime Rate published in The Wall
Street Journal Money Rates table on the last business day of each month.
“Purchase” means the use of your Account to purchase or lease goods or
services at participating merchants.
“Security Agreement” means the portion of the Agreement entitled,
“Security Agreement”, which provides the terms applicable to your security
deposit.
“We,” “us” and “our” refer to the Bank.
“You,” “your” or “yours” refer to you and any other person(s) who are also
contractually liable under this Agreement.
“Transaction Date” means the date shown on your billing statement for a
transaction or fee.

ACCEPTANCE OF AGREEMENT
You accept this Agreement, and expressly agree to be bound by the terms,
conditions, and disclosures of this Agreement if (i) you do not cancel your
Account within 30 days after receiving a Card, or (ii) you use your Card. You
may, however, reject the “Arbitration of Disputes” section as explained in
that section.

COMMUNICATIONS CONSENT

START BUILDING TODAY

COMMUNICATIONS CONSENT
You expressly consent and agree that Bank and our affiliates, agents,
assignees and service providers may use written, electronic or verbal means
to contact you. This consent includes, but is not limited to, contact by
manual calling methods, prerecorded or artificial voice messages, text
messages, emails and/or automatic telephone dialing systems. You agree
that Bank and our affiliates, agents, assignees and service providers may
use any email address or any telephone number you provide, now or in the
future, including a number for a cellular phone or other wireless device,
regardless of whether you incur charges as a result. For any wireless (cell
phone) number you provide, you represent that you are the subscriber or
are authorized to consent to these communications on behalf of the
subscriber. You agree that the Bank may monitor and record any telephone
calls to assure the quality of our service or for other business reasons, and
that you will advise us if your contact information changes.

SECURED ACCOUNT; PROVISION OF SECURITY
DEPOSIT
The Account is a secured credit card account. In consideration of the
creation of the Account and the issuance of the Card, you have agreed to
provide a security deposit, in accordance with the terms of the Security
Agreement below.

CHANGES TO YOUR AGREEMENT
The rates, fees and terms of this Agreement may change from time to time.
We may add or delete any term of this Agreement. If required by law, we will
give you advance written notice of the change(s) and a right to reject the
change(s). We will not charge any fee or interest charge prohibited by law.

USING YOUR ACCOUNT
Permitted Uses
You may use your Account for Purchases. You promise to use your Account
only for personal, family, or household purposes. You may not use it for
illegal transactions. Purchases can only be made in the United States. We
may decline any transaction at any time.
Authorized Users
At this time, we only support that you, as the cardholder, be the single user
of the Card. We do not support additional authorized users. If you permit
any person to use your Card, you will be liable for all transactions made by
that person, including transactions for which you may not have intended to
be liable.
Checks
If we provide you with Checks, we will tell you whether we will treat the
Check as a Purchase. You may not use these Checks to pay any amount you
owe us.
Credit Authorizations
We do not guarantee approval of transactions. We may not authorize a
transaction for security or other reasons, such as Account default, suspected
fraudulent or unlawful activity, internet gambling, or any indication of
increased risk related to the transaction. We will not be liable to you if we
decline to authorize a transaction or if anyone refuses your Card, Check or
Account number.
Credit Lines
We will tell you what your Account credit line is. You must keep your
Account balance below your Account credit line. If you do not, we may
request immediate payment of the amount by which you exceed it. If you
exceed your credit limit, you will still remain liable for all credit you receive.
We may delay increasing your available credit by the amount of any
payment that we receive for up to 10 Business Days.
Your initial credit limit is based on the amount of the Security Deposit that
you initially deposited to the Security Deposit Account. However, we will
h
$25
lf
A
hi h ill d

charge your $25 annual fee to your Account, which will reduce your
available credit by that amount.
Purchases
You may use your Account to make Purchases by presenting your Card or
providing your Card number and additional information (for example, in
online or telephone transactions) to participating merchants and
establishments that honor the Card.
We will not be liable to you (or anyone else) if any ATM, merchant or other
person cannot or will not process a purchase transaction permitted under
this Agreement. Unless prohibited by applicable law, we may from time to
time limit the type, number and dollar amount of any transaction, even if
you have sufficient available credit to complete the transaction, and may
terminate or suspend your use of the Card or the Account, with or without
notice to you before or at the time we take such action.
Promise to Pay
When you use your Account or let someone else use it, you promise to pay
the total amount of the Purchases made, plus all interest, fees and other
amounts that you may owe us. We may limit or close your Account, but the
terms of this Agreement will apply until you pay the Account in full.
Lost or Stolen Cards and Liability for Unauthorized Use
You must notify us immediately if your Card or Account information is lost
or stolen, or you believe someone is using your Account or a Card without
your permission. You may contact us by phone at 1-877-883-0999 or in
writing to Lead Bank c/o Self Financial, 515 Congress Ave, Suite 2200, Austin,
TX 78701. You agree to assist us in our investigation of the matter. If you do
this and we find you not responsible, you will not be held liable for the
unauthorized use of your Account.
To the extent not covered in elsewhere in this Agreement, Visa’s Zero
Liability Policy provides you with protections against certain unauthorized
transactions on your Card. We will evaluate any such unauthorized
transaction claims for which you notify us, and we limit your liability for such
transactions to zero. However, we may increase your liability for such
transactions if we reasonably determine, based on substantial evidence,
that you were negligent or acted fraudulently in the handling of your Card
or Account.

FEES
The following fees may apply to your account. If they do apply, you will find
the amount in the Pricing Schedule. You agree to pay any fees that apply.
Annual Fee
We will charge an annual fee during your first billing cycle after you open
your Account and every 12 months thereafter. The annual fee is treated as a
Purchase transaction.
Late Fee
We will not charge a late fee the first time you do not make the Minimum
Payment Due by the Payment Due Date. After that, if you do not pay the
Minimum Payment Due by the fifteenth day following the Payment Due
Date, we will charge you a late fee. If your Minimum Payment Due is more
than $25, your late fee will be $15. If your Minimum Payment Due is less than
or equal to $25, your late fee will be $5, provided, however, that your late fee
will never exceed the Minimum Payment Due that was due immediately
prior to the date on which the fee was assessed.
Returned Payment Fee
If you make a payment that is not honored by your financial institution, we
will charge you a returned payment fee, even if the payment is
subsequently honored after we re-submit it. The returned payment fee will
never exceed the Minimum Payment Due that was due immediately prior
to the date on which the payment was returned to us.

INTEREST CHARGES
Applicable Rate

See your Pricing Schedule for information about the Annual Percentage
Rate (APR) that applies to your Account.
Your Pricing Schedule may include a variable APR. The Variable APR is
determined by adding the number of percentage points that we specify in
the Pricing Schedule to the Prime Rate. The Variable APR will increase or
decrease when the Prime Rate changes. An APR change will take effect on
the first day of the billing period that begins during the same calendar
month that the Prime Rate changes. An increase in the APR will increase
your interest charges and may increase your Minimum Payment Due.
How We Calculate Interest Charges
We calculate interest charges each Billing Cycle. To calculate your balance
for purpose of charging interest at the end of each Billing Cycle, we use a
method called “Average Daily Balance (including new purchases).” This
method involves a two-step calculation.
First, we calculate the "Average Daily Balance" by doing the following:
We take the beginning balance for Purchases each day during the monthly
billing period, add any new Purchases posted that day, and subtract any
payments that are applied to the Purchase transaction category for that
day. This gives us the daily balance. We then add up all the daily balances
for each day included in the monthly Billing Cycle, and divide by the total
number of days included in the monthly Billing Cycle. That gives us the
Average Daily Balance.
Next, we divide the applicable Annual Percentage Rate by 365. This gives us
the "Daily Interest Rate".
Finally, we 1) multiply the Daily Interest Rate by the Average Daily Balance,
then 2) multiply the result by the number of days in the Billing Cycle. This
gives us the interest charge.
Grace Periods. We will not assess interest charges on any new Purchases
posted to your Account, provided you have paid your previous month’s
balance in full (or your previous month's balance was zero or a credit
amount). If you pay the “New Balance” amount on your previous billing
statement by the Payment Due Date, as shown on that billing statement,
we will not impose interest charges on new Purchases, or any portion of a
new Purchase, paid by the Payment Due Date on your current billing
statement. New Purchases are Purchases that first appear on the current
billing statement.
When Interest Charges Begin. We begin to impose interest charges on a
transaction from the day we add it to the daily balance. We continue to
impose interest charges until you pay the total amount you owe us. You can
avoid paying interest on Purchases as described above.

MAKING PAYMENTS
Payment Instructions
You must pay in U.S. dollars. Please do not send cash, checks or money
orders. Sending cash is not allowed. You may only make electronic
payments using either a U.S. bank account or debit card.
You must pay us for all amounts due on your Account.
We may refuse to accept a payment in a foreign currency. If we do
accept it, we will charge your Account our cost to convert it to U.S.
dollars.
We can accept late payments, partial payments or payments marked
“payment in full” or with any other restrictive endorsement without
losing any of our rights under this Agreement.
We credit your payments in accordance with the terms contained on
your billing statement.
If a third party makes a payment on your Account and we return all or
a part of such payment, then we may adjust your Account for any
amount returned. We reserve the right to defend ourselves against any
demand to return funds we have received, and may agree to a
compromise of the demanded amount as part of a settlement.
Minimum Payment Due
You may pay all or part of your New Balance shown on your billing
statement at any time. You must pay at least the Minimum Payment Due
by the Payment Due Date shown on your billing statement. Your “Minimum
Payment Due” equals:

Any amount past due; plus
The greater of:
1. $26; or
2. 1% of your New Balance (excluding interest and fees) plus any
interest charges, plus any late fees and returned payment fees, in
each case as shown on your billing statement for the billing
period.
The Minimum Payment Due may also include amounts by which you
exceed your Account credit line. The Minimum Payment Due is never more
than the New Balance. The Minimum Payment Due is rounded up to the
nearest dollar.
How We Apply Payments
We apply payments and credits at our discretion, including in a manner
most favorable or convenient for us. In all cases, we will apply payments and
credits as required by applicable law.

OTHER IMPORTANT INFORMATION
Default
You are in default if:
you file bankruptcy or another insolvency proceeding is filed by you or
against you;
you provide us with any false or misleading information;
we have a reasonable belief that you are unable or unwilling to repay
your obligations to us;
you die or are legally declared incompetent or incapacitated;
you use a check or instrument for payment which is dishonored;
any other creditor tries by legal process to take money of yours,
including Funds (as defined in the Security Agreement), in our
possession;
you fail to comply with the terms of this Agreement or any Agreement
with us or an affiliate, including failing to make a required payment
when due, exceeding your Account credit line or using your Card or
Account for an illegal transaction.
If you are in default, we may declare the entire balance of your Account
immediately due and payable without notice.
Re-Verification of Credit Information
We can review any information you provided on your application at any
time. This may include:
requesting credit bureau reports;
verifying your current credit standing; and
verifying your employment, assets and income records.
Collection Costs
If we use an attorney to collect your Account, we may charge you our legal
costs as permitted by law. These include reasonable attorneys’ fees, court or
other collection costs, and fees and costs of any appeal.
Automatic Account Information Updates
You may set up automatic billing or store your Account information with a
merchant, wallet provider, or other third party. If your card information
changes, which may include billing address, you authorize us to provide this
updated information to any such merchant, wallet provider, or other thirdparty at our discretion. You must contact the merchant, wallet provider, or
other third-party directly or remove your credit card information from the
merchant site, wallet provider, or third-party if you wish to stop automatic
billing or account updates.
Privacy Policy
We send you our Privacy Policy when you open your Account and annually.
Contact us at help@self.inc if you would like a copy. Please read it carefully.
It summarizes:
the personal information we collect;
how we safeguard its confidentiality and security;
when it may be shared with others; and

when it may be shared with others; and
how you can limit our sharing of this information.
Reporting to Credit Reporting Agencies
We may from time to time review your credit, employment and income
records. We may report the status and payment history of your Account to
credit reporting agencies and other creditors. We normally report to credit
reporting agencies each month. If you believe that the information we
reported is inaccurate or incomplete, please write us at Lead Bank c/o Self
Financial, Inc. 515 Congress Ave, Suite 2200, Austin, TX 78701. Please include
your name, address, home phone number and Account number.
Cancellation of Your Account
You may cancel your Account. You will remain responsible for any
amount you owe us under this Agreement.
We may cancel, suspend or not renew your Account at any time
without notice.
Governing Law
Except as provided in the “ARBITRATION” section, this Agreement is
governed by applicable federal law and by Missouri law, without regard to
its choice-of-law rules.
Severability
If any part of this Agreement is found to be invalid, the rest of it will still
remain in effect. However, if the waiver of class actions in the
“ARBITRATION” section is invalidated in any proceeding in which you and
we are involved, then the entire “ARBITRATION” section will be void with
respect to that proceeding.
Enforcing this Agreement
We may delay enforcing or not enforce any of our rights under this
Agreement without losing or waiving any of them.
Assignment of Account
We may sell, assign or transfer your Account or any portion of it without
notice to you. You may not sell, assign or transfer your Account without first
obtaining our prior written consent.

MILITARY BORROWERS
Statement of Military Annual Percentage Rate (MAPR)
Federal law provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer credit. In
general, the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an Annual Percentage Rate of 36
percent. This rate must include, as applicable to the credit transaction or
account: (1) the costs associated with credit insurance premiums; (2) fees for
ancillary products sold in connection with the credit transaction; (3) any
application fee charged (other than certain application fees for specified
credit transactions or accounts); and (4) any participation fee charged (other
than certain participation fees for a credit card account).
Oral Disclosures
Before agreeing to this Agreement, in order to hear important disclosures
and payment information about this Agreement, or whether this section
applies to you, please call 1-877-883-0999 anytime 24/7.

CONTACT US
Unless we tell you otherwise, you can notify us: by phone at 1-877-883-0999
or in writing to Lead Bank c/o Self Financial, 515 Congress Ave, Suite 2200,
Austin, TX 78701. When writing, please include your name, address, home
phone number and Account number. You must contact us within 15 days
after changing your e-mail address, mailing address or phone number.

STATE DISCLOSURES:
(1) MARRIED WISCONSIN RESIDENTS: You agree that no provision of any

(1) MARRIED WISCONSIN RESIDENTS: You agree that no provision of any
marital property agreement, unilateral statement under the Wisconsin
Marital Property Law or court decree will adversely affect our interests
unless, prior to the time credit is granted, we are given a copy of the
agreement, statement, or decree or we have actual knowledge of the
adverse provision. (2) CALIFORNIA RESIDENTS: An applicant, if married,
may apply for a separate account. Applicants: (1) may, after credit approval,
use the credit card account up to its credit limit; (2) may be liable for
amounts extended under the plan to any joint applicant. As required by law,
you are hereby notified that a negative credit report reflecting on your
credit record may be submitted to a credit reporting agency if you fail to
fulfill the terms of your credit obligations. (3) OHIO RESIDENTS: The Ohio
laws against discrimination require that all creditors make credit equally
available to all credit worthy customers, and that credit reporting agencies
maintain separate credit histories on each individual upon request. The
Ohio Civil Rights Commission administers compliance with this law. (4)
NEW YORK RESIDENTS: New York residents may contact the New York
State Department of Financial Services by telephone or visit its website for
free information on comparative credit card rates, fees and grace periods.
NY State Dept of Financial Services: 1-800-342-3736 or visiting
https://www.dfs.ny.gov/consumers/banking_money (5) NEW YORK AND
VERMONT RESIDENTS: We may obtain your credit reports, for any
legitimate purpose associated with the account or the application or
request for an account, including but not limited to reviewing, modifying,
renewing and collecting on your account. On your request, you will be
informed if such a report was ordered. If so, you will be given the name and
address of the consumer reporting agency furnishing the report. If you are a
Vermont resident, you consent to the obtaining of such reports by signing
or otherwise submitting a credit application. (6) DELAWARE AND OREGON
RESIDENTS: Service charges not in excess of those permitted by law will be
charged on the outstanding balances from month to month. You may pay
more than the minimum payment due, up to your entire outstanding
balance, at any time. (7) UTAH RESIDENTS: As required by Utah law, you are
hereby notified that a negative credit reporting reflecting on your credit
record may be submitted to a credit reporting agency if you fail to fulfill the
terms of your credit obligations.

ARBITRATION
This Arbitration Provision does not apply if, on the date you submit your
Application or on the date we seek to invoke our arbitration provision, you
are a member of the Armed Forces or a dependent of such a member
covered by the federal Military Lending Act, 10 USC § 987 and its
implementing regulations, 32 CFR § 232.1, et sec. If you would like more
information about whether you are covered by the Military Lending Act,
please contact us at 1-877-883-0999.
IT IS IMPORTANT THAT YOU READ THIS ARBITRATION PROVISION
CAREFULLY. IT PROVIDES THAT YOU MAY BE REQUIRED TO SETTLE A
CLAIM OR DISPUTE THROUGH ARBITRATION, EVEN IF YOU PREFER TO
LITIGATE SUCH CLAIMS IN COURT. YOU ARE WAIVING RIGHTS YOU MAY
HAVE TO LITIGATE THE CLAIMS IN A COURT OR BEFORE A JURY. YOU ARE
WAIVING YOUR RIGHT TO PARTICIPATE IN A CLASS ACTION LAWSUIT,
CLASS ACTION ARBITRATION, OR OTHER REPRESENTATIVE ACTION WITH
RESPECT TO SUCH CLAIMS
Agreement to Arbitrate. In the event of a dispute, claim, or controversy
between you and us arising out of or relating to this Account, or the
relationships resulting from this Account or any other dispute between you
or us (“Claim”), either you or we may choose to resolve the Claim by binding
arbitration, as described below, instead of in court. Any Claim (except for a
claim challenging the validity or enforceability of this arbitration agreement,
including the Class Action Waiver) may be resolved by binding arbitration if
either side requests it. THIS MEANS IF EITHER YOU OR WE CHOOSE
ARBITRATION, NEITHER PARTY SHALL HAVE THE RIGHT TO LITIGATE SUCH
CLAIM IN COURT OR TO HAVE A JURY TRIAL. DISCOVERY AND APPEAL
RIGHTS ALSO ARE LIMITED IN ARBITRATION.
Even if all parties have opted to litigate a Claim in court, you or we may elect
arbitration with respect to any Claim made by a new party or any new
Claims later asserted in that lawsuit.
The arbitrator may award injunctive relief only in favor of the individual
party seeking relief and only to the extent necessary to provide relief
warranted by that party’s individual claim. If a court decides that applicable
law precludes enforcement of any of this paragraph’s limitations as to a
particular claim for relief, then after all appeals from that decision have
been exhausted, that claim (and only that claim) must be severed from the

arbitration and may be brought in court.

Your Right to Go To Small Claims Court. We will not choose to arbitrate any
individual claim you bring in small claims court or your state’s equivalent
court. However, if such a claim is transferred, removed or appealed to a
different court, we may then choose to arbitrate.
Governing Law and Rules. This arbitration agreement is governed by the
Federal Arbitration Act (FAA). Arbitration must proceed only with the
American Arbitration Association (AAA) or JAMS. The rules for the
arbitration will be those in this arbitration agreement and the procedures of
the chosen arbitration organization, but the rules in this arbitration
agreement will be followed if there is disagreement between the
agreement and the organization’s procedures. If the organization’s
procedures change after the claim is filed, the procedures in effect when
the claim was filed will apply. For a copy of each organization’s procedures,
to file a claim or for other information, please contact:
AAA at 1101 Laurel Oak Rd., Voorhees, NJ 08043, www.adr.org (phone 1877-495-4185) or
JAMS at 620 Eighth Ave., Floor 34, New York, NY 10018,
www.jamsadr.com (phone 1-800-352-5267).
If both AAA and JAMS are completely unavailable, and if you and we cannot
agree on a substitute, then either you or we may request that a court with
jurisdiction appoint a substitute.
Fees and Costs. If you wish to begin arbitration against us but you cannot
afford to pay the organization’s or arbitrator’s costs, we will advance those
costs if you ask us in writing. Any request like this should be sent to Lead
Bank c/o Self Financial, 515 Congress Ave, Suite 2200, Austin, TX 78701. If you
lose the arbitration, the arbitrator will decide whether you must reimburse
us for money we advanced for you for the arbitration. If you win the
arbitration, we will not ask for reimbursement of money we advanced.
Additionally, if you win the arbitration, the arbitrator may decide that you
are entitled to be reimbursed your reasonable attorneys’ fees and costs (if
actually paid by you).
Hearings and Decisions. Arbitration hearings will take place in the federal
judicial district where you live. A single arbitrator will be appointed.
The arbitrator must:
Follow all applicable substantive law, except when contradicted by the
FAA;
Follow applicable statutes of limitations;
Honor valid claims of privilege;
Issue a written decision including the reasons for the award.
The arbitrator’s decision will be final and binding except for any review
allowed by the FAA. However, if more than $100,000 was genuinely in
dispute, then either you or we may choose to appeal to a new panel of three
arbitrators. The appellate panel is completely free to accept or reject the
entire original award or any part of it. The appeal must be filed with the
arbitration organization not later than 30 days after the original award
issues. The appealing party pays all appellate costs unless the appellate
panel determines otherwise as part of its award.
Claim Notice and Special Payment. If you have a Claim, before initiating an
arbitration proceeding, you may give us written notice of the Claim (“Claim
Notice”) at least 30 days before initiating the arbitration proceeding. The
Claim Notice must include your name, address, and account number and
explain in reasonable detail the nature of the Claim and any supporting
facts. Any Claim Notice shall be sent to us at Lead Bank c/o Self Financial,
515 Congress Ave, Suite 2200, Austin, TX 78701 (or such other address as we
shall subsequently provide to you). If, and only if, (1) you submit a Claim
Notice in accordance with this agreement on your own behalf (and not on
behalf of any other party); and (2) an arbitrator, after finding in your favor in
any respect on the merits of your claim, issues you an award that (excluding
any arbitration fees or attorneys’ fees and costs awarded by the arbitrator) is
greater than the value of Bank's last written settlement offer made before
an arbitrator was selected, then you will be entitled to the amount of the
award or $7,500, whichever is greater. If you are entitled to the $7,500, you
will receive in addition any arbitration fees or attorneys’ fees and costs
awarded by the arbitrator.
Any arbitration award may be enforced (such as through a judgment) in any
court with jurisdiction.

Other Beneficiaries of this Provision. In addition to you and us, the rights
and duties described in this arbitration agreement apply to: our Affiliates
and our and their officers, directors and employees; any third party codefendant of a claim subject to this arbitration provision; and all joint
Account Holders.
Survival of this Provision. This arbitration provision shall survive:
closing of your Account;
voluntary payment of your Account or any part of it;
any legal proceedings to collect money you owe;
any bankruptcy by you; and
any sale by us of your Account.
You Have the Right to Reject Arbitration for this Account. You may reject the
arbitration agreement but only if we receive from you a written notice of
rejection within 30 days of your receipt of the Card after your Account is
opened. You must send the notice of rejection to: Lead Bank c/o Self
Financial, 515 Congress Ave, Suite 2200, Austin, TX 78701, ATTN: Compliance.
Your rejection notice must include your name, address, phone number,
Account number and personal signature. No one else may sign the
rejection notice for you. Your rejection notice also must not be sent with any
other correspondence. Rejection of arbitration will not affect your other
rights or responsibilities under this Agreement. If you reject arbitration,
neither you nor we will be subject to the arbitration provisions for this
Account. Rejection of arbitration for this Account will not constitute
rejection of any prior or future arbitration agreement between you and us.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT
FOR FUTURE USE
This notice contains important information regarding your rights and our
responsibilities under the Fair Credit Billing Act.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: Lead Bank c/o
Self Financial, 515 Congress Ave, Suite 2200, Austin, TX 78701. You may also
contact us on the Web at www.self.inc/contact.
In your letter or on the Web, please give us the following information:
Account information: Your name and account number;
The posting date of the transaction in question;
Dollar amount: The dollar amount of the suspected error; and
Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing or electronically. You
may call us, but if you do, we are not required to investigate any potential
errors, and you may have to pay the amount in question.

What Will Happen After We Receive Your Written or Electronic Notice
When we receive your written or electronic notice, we must do two things:
1. Within 30 days of receiving your notice, we must tell you that we
received it. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your notice, we must either correct the
error or explain to you why we believe the statement is correct.
While we investigate whether or not there has been an error:
We cannot try to collect the amount in question, or report you as
delinquent on that amount.
The charge in question may continue to appear on your statement,
and we may continue to charge you interest on that amount. If we
determine that we made a mistake, you will not have to pay the
amount in question or any interest or fees related to that amount.
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:

If we find that we made a mistake, you will not have to pay the amount
in question or any interest or other fees related to that amount.
If we do not find that we made a mistake, you will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date that
payment is due. If you do not pay the amount we think you owe, we
may report you as delinquent.
If you receive our explanation but still believe your bill is wrong, and you
write to us within 10 days telling us that you still refuse to pay, we cannot
report you as delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the questioned amount, even if your bill is correct.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at Lead Bank c/o Self Financial, 515 Congress
Ave, Suite 2200, Austin, TX 78701, or electronically at www.self.inc/contact.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.

Security Agreement
This is the Security Agreement for your Account.
1. Security; Security Deposit Account
In consideration of and as a condition to our opening the Account for you
and for other good and valuable consideration, you are providing or
otherwise arranging for certain of your funds ("Funds") to serve as security
for your Account. You authorize us to open a deposit account at Bank in
your name and under our exclusive control (the "Security Deposit Account"),
which will serve as security for your Account. You grant us a security interest
in the Security Deposit Account, which will include any and all future
additions to the Security Deposit Account. No portion of the Security
Deposit Account may be used to secure other loans. The minimum amount
required to be deposited in the Security Deposit Account is the amount of
your Account credit line, but will not be less than $100. You may make a
transfer to the Security Deposit Account solely for purposes of funding your
required security deposit. The Security Deposit Account will be solely owned
by you. Funds in the Security Deposit Account at Bank are insured by the
Federal Deposit Insurance Corporation ("FDIC") up to the maximum
allowable limits. For more detailed information on FDIC coverage, contact
the FDIC directly at 1-877-ASKFDIC (1-877-275-3342), (TDD: 1-800-925-4618)
or visit www.fdic.gov.
a. If you have a Credit Builder Account. If you currently have a Credit
Builder Account (managed by Self Financial) with Lead Bank or another
bank, then (1) you agree that the certificate of deposit (“CD”) that has been
established in connection with your Credit Builder Account constitutes
Funds that serve as security for your Account; (2) you grant us a security
interest in the CD; and (3) you agree that Lead Bank has the sole and
absolute right and authority to direct the disposition of the Funds held in
the CD without your consent or agreement (subject to any prior lien of the
bank holding the CD), and that you authorize and direct the financial
institution with which you have established a Credit Builder Account to

institution with which you have established a Credit Builder Account to
comply with such direction. Upon closure, default, or full repayment of your
Credit Builder Account, you authorize and direct us to, on your behalf, cause
the transfer from the CD to the Security Deposit Account, of an amount
equal to your credit limit (at the time of the transfer) for your Account (or
the full amount of the funds remaining from your CD, if less than your credit
limit) and you authorize and direct the financial institution holding the CD
to comply with such direction. Once Funds have been transferred from the
CD to your Security Deposit Account, those Funds will continue to serve as
security for your Account. We may choose, in our discretion, not to perfect
our security interest in a CD held at another bank.
b. If you do not have a Credit Builder Account. If you currently do not have
a Credit Builder Account, then you agree to transfer Funds from another
funding source owned by you (such as a deposit account or prepaid card) to
the Security Deposit Account to serve as security for your Account. Your
Account will not be opened until your Security Deposit Account has been
funded.
2. Withdrawals
You will not be permitted to make withdrawals from the Security Deposit
Account (See Section 9 below for terms and conditions regarding return of
the Funds and closure of your Account.) We will have the right to withdraw
your funds from the Security Deposit Account as permitted under Sections
8 and 9 below.
3. Additional Funds
Other than depositing Funds to secure your Account, you will not be
permitted to make deposits to the Security Deposit Account.
4. Security Deposit Account Statements
You will get a monthly Security Deposit Account statement as part of your
Account statement.
5. Electronic Fund Transfers to or from your Security Deposit Account
You may fund your Security Deposit Account with an electronic fund
transfer ("Transfer"). If we do not complete a Transfer to your Security
Deposit Account on time or in the correct amount according to our
agreement with you, we will be liable for your losses or damages. However,
we will not be liable if circumstances beyond our control (such as fire or
flood) prevent the transfer, despite reasonable precautions that we have
taken. In case of errors or questions about your funding Transfers call us at 1877-883-0999 or write us at Lead Bank c/o Self Financial, 515 Congress Ave,
Suite 2200, Austin, TX 78701 as soon as you can, if you think your statement
is wrong or if you need more information about a funding Transfer listed on
the statement. We must hear from you no later than 60 days after we sent
the FIRST statement on which the problem or error appeared. (1) Tell us your
name and Account number. (2) Describe the error or the Transfer you are
unsure about, and explain as clearly as you can why you believe it is an error
or why you need more information. (3) Tell us the dollar amount of the
suspected error. If you tell us orally, we may require that you send us your
complaint or question in writing within 10 Business Days. We will determine
whether an error occurred within 10 Business Days after we hear from you
and will correct any error promptly. If we need more time, however, we may
take up to 45 days to investigate your complaint or question. If we decide to
do this, we will credit your Security Deposit Account within 10 Business Days
for the amount you think is in error (if applicable), during the time it takes
us to complete our investigation. If we ask you to put your complaint or
question in writing and we do not receive it within 10 Business Days, we
may not credit your Security Deposit Account (if applicable). For errors
involving a new Security Deposit Account, we may take up to 90 days to
investigate your complaint or question. For a new Security Deposit Account,
we may take up to 20 Business Days to credit your Security Deposit Account
(if applicable) for the amount you think is in error. We will tell you the results
within three Business Days after completing our investigation.
6. Pledge and Grant of Security Interest
You understand that granting us a security interest in the Security Deposit
Account (or the CD, to the extent that funds in the CD constitute the Funds
that serve as security for your Account) is a necessary condition for opening
your Account. Your Account will not be opened until you have either
provided us a security interest in the CD or funded the Security Deposit
Account. As security for the prompt payment and performance of all your

Account. As security for the prompt payment and performance of all your
obligations to us arising pursuant to the Account ("Obligations"), you hereby
grant a security interest to us in all of your right, title, and interest in the
Security Deposit Account, the CD (if any), and any and all Funds, including
all proceeds of and additions to the Security Deposit Account, the CD, and
the Funds. We may increase or decrease your Account credit line and no
such action shall change the fact that the Security Deposit Account, the CD
(if any), and the Funds, are held by us as security for the Obligations. You
represent that there are no current lawsuits or bankruptcy proceedings that
might affect our interest in the Security Deposit Account, the CD, or the
Funds. You have not and will not attempt to transfer or offer any interest in
the Security Deposit Account or the Funds to any person other than us. You
and we acknowledge that subject to our possession of and security interest
in the Security Deposit Account and the Funds, you retain beneficial
ownership of the Security Deposit Account and the Funds held at the Bank
for FDIC insurance purposes.
7. Interest on Funds
No interest will be paid on the Funds. If we do pay interest on Funds in the
Security Deposit Account in the future, we will add it to the Security Deposit
Account.
8. Application of Funds to the Account
If you are in default under the Cardmember Agreement or the Account is
closed for any reason, you authorize us at any time(s) to withdraw all or any
portion of the Funds from the Security Deposit Account or the CD and
apply them to reduce your Obligations. Any such application of Funds will
not constitute any part of the Minimum Payment Due under the
Cardmember Agreement. You will continue to be responsible for making
payments as required under the Cardmember Agreement and for repaying
any outstanding Obligations. Our rights under this Security Agreement are
in addition to any others we have under applicable law. We may make
settlements or compromises on the Security Deposit Account, transfer the
Security Deposit Account to our name, or exercise ownership rights on the
Security Deposit Account. We are not required to notify you of any of the
above.
9. Return of Funds
If we determine that you qualify for return of any Funds from the Security
Deposit Account, we will return these Funds to you by a method we deem
sufficient. If your Account is closed, we will return any excess Funds that
remain in the Security Deposit Account after repayment of all Obligations.
We generally return these excess Funds within ten days after the end of the
second billing period following the time that Funds are initially applied to
reduce your Obligations. If we mail a check to you, we will mail it to your
mailing address on file with us for the Security Deposit Account. In the
event of your death, we will not release Funds on deposit unless all
Obligations have been repaid and all legal documents we require are
delivered to us.
10. Confidentiality
We will disclose information to third parties about your Security Deposit
Account or any transfers you make: (a) where it is necessary for completing
a transfer, or (b) in order to verify the existence and condition of your
Security Deposit Account for a third party, or (c) in order to comply with
government agency or court orders, or (d) if you give us your written
permission, or (e) as permitted by the privacy notice we have provided to
you.
11. Legal Proceedings
We may comply with any writ of attachment, adverse claim, garnishment,
tax levy, restraining order, subpoena, warrant, or other legal proceeding
involving your Security Deposit Account which we believe to be valid. If your
Account, your Security Deposit Account, or your Funds become involved or
are likely to become involved in a legal proceeding, you understand that the
entire balance of your Funds in the Security Deposit Account may be
restricted until the matter has been resolved. Such proceedings are subject
to our security interest. We shall be entitled to rely upon the
representations, warranties, and statements made in such legal
proceedings. You agree to hold harmless and indemnify us for any losses,
expenses and costs, including reasonable attorneys' fees, incurred by us as a
result of complying with such legal proceedings. In addition to the events of
default set forth in the Cardmember Agreement you will be in default

default set forth in the Cardmember Agreement, you will be in default
under the Cardmember Agreement if we are served or become involved
with a legal proceeding regarding the Funds or Security Deposit Account.
12. Miscellaneous
This Security Agreement and our security interest and rights as pledge
hereunder are governed by Missouri law. We may, in our sole discretion,
assign the Security Deposit Account and our rights and obligations under
this Security Agreement. If we use an attorney to defend or enforce our
rights under this Security Agreement or to perform any legal services in
connection with this Security Agreement, we may charge you our legal
costs as permitted by law. This Security Agreement is part of the
Cardmember Agreement. The other terms of the Cardmember Agreement
apply to this Security Agreement, and any disputes regarding the terms of
this Security Agreement are subject to Arbitration as set forth in the
Cardmember Agreement. The terms of this Security Agreement shall
survive and continue to apply to the Security Deposit Account following
closure of the Account or the Security Deposit Account, and shall be
binding on you even if you cancel your Account or do not accept the
Cardmember Agreement as permitted in the Cardmember Agreement. If
any part of the Security Agreement is invalid, the rest of the Security
Agreement will remain in effect.

Pricing Schedule
This Pricing Schedule is part of the Cardmember Agreement and Security
Agreement.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

23.99%
This APR will vary with the market based
on the Prime Rate

APR for Balance Transfers

Not Applicable.

APR for Cash Advances

Not Applicable.

Penalty APR and When it
Applies

None.

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the
close of each billing period (at least 23 days
for billing periods that begin in February).
We will not charge you any interest on
purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider
when applying for or using a credit card,
visit the website of the Consumer
Financial Protection Bureau at
https://www.consumerfinance.gov/learn
more.

Fees
$25.00
NOTICE: The annual fee will be assessed
before you begin using your card and will
reduce the amount of credit you initially
have available.

Annual Fee

If your initial credit limit is $100, your initial
available credit will be only $75. If your
initial credit limit is $125, your initial
available credit will be only $100. If your
initial credit limit is $150, your initial
available credit will be only $125.
You may still reject this plan, provided that
you have not yet used the account or paid
a fee after receiving a billing statement. If
you do reject the plan, you are not
responsible for any fees or charges.

Late Payment

Up to $15

Returned Payment

Up to $15

How We Will Calculate Your Balance: We use a method called "average
daily balance (including new purchases)." See your account agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how
to exercise those rights is provided in your account agreement.
Variable Rate Information. The Purchase APR is equal to the Prime Rate
plus a margin of 20.74%. Variable APRs are based on the 3.25% Prime Rate as
of April 1, 2020. The daily periodic rate is currently 0.06573%.

LEARN MORE

ABOUT

Join Self

What is Self?

About us

Log in

Our Story

Careers

Pricing
Trust & Security
Self Visa® Credit Card
Help
Reviews
How to build credit

WE'RE HIRING

Investors
Press
Contact
Referrals
Site map
Affiliate

© Self Financial, Inc.
Privacy | Terms | Compliance |
Card Agreements
Google Play and the Google Play logo are trademarks of
Google LLC.
App Store, Apple and the Apple logo are trademarks of
Apple Inc.
All Credit Builder Accounts made by Lead Bank, Member
FDIC, Equal Housing Lender, Sunrise Banks, N.A. Member
FDIC, Equal Housing Lender or Atlantic Capital Bank, N.A.
Member FDIC, Equal Housing Lender. Subject to ID
Verification. Individual borrowers must be a U.S. Citizen or
permanent resident and at least 18 years old. Valid bank
account and Social Security Number are required. All
loans are subject to ID verification and consumer report
review and approval. Results are not guaranteed.
Improvement in your credit score is dependent on your
specific situation and financial behavior. Failure to make
monthly minimum payments by the payment due date
each month may result in delinquent payment reporting
to credit bureaus which may negatively impact your
credit score. This product will not remove negative credit
history from your credit report. All loans subject to
approval. All Certificates of Deposit (CD) are deposited in
Lead Bank, Member FDIC, Sunrise Banks, N.A., Member
FDIC or Atlantic Capital Bank, N.A., Member FDIC.
Lead Bank. Member FDIC, Equal Housing Lender
Sunrise Banks, N.A. Member FDIC, Equal Housing Lender
Atlantic Capital Bank, N.A. Member FDIC, Equal Housing
Lender
The Self Visa® Credit Card is issued by Lead Bank,
Member FDIC, Equal Housing Lender or Atlantic Capital
Bank, N.A., Member FDIC, Equal Housing Lender.

